***THIS IS A CAPITAL CASE***
No. __________________________________

In the Supreme Court of the United States

JUSTIN ANDERSON,

Petitioner
v.
STATE OF ARKANSAS,

Respondent

On Petition for a Writ of Certiorari to the
Supreme Court of Arkansas

PETITIONER’S MOTION TO PROCEED IN FORMA PAUPERIS
Petitioner asks leave to file the attached petition for a writ of certiorari without
prepayment of costs and to proceed in forma pauperis. On November 22, 2011, the
United States District Court for the Eastern District of Arkansas granted
Petitioner’s motion to proceed in forma pauperis and appointed the Federal Public
Defender’s Office to represent Petitioner in “his federal habeas corpus case and in
any ancillary proceedings.” On December 3, 2020, the Supreme Court of Arkansas
recognized the undersigned as counsel in the matter from which the petition for a
writ of certiorari arises. The courts’ orders are attached hereto.

1

Cas 4:11-md-00042-JMM
Document 2
,

J

Filed 11/22/11

Page 1 of 1

THIS IS A CAPITAL CASE

IN HE UNITED STATES DISTRICT COURT
FOR HE EASTERN DISTRICT OF ARKANSAS

MOVANT.

IN RE JU TIN AN ERSON,

i

ORDER

I

Justi Anderson's motion for appointment of counsel is granted. The

,
i

Federal Pu lic Defer)der's Capital Habeas Unit is hereby appointed to represent
Mr. Anders n in his federal habeas corpus case and in any ancillary proceedings.

IT I SO 0RI?ERED this 7_7..- day of November, 2011

~V\A~

TED STATES DISTRICT COURT JUDGE

OFFICE OF THE CLERK
ARKANSAS SUPREME COURT
625 MARSHALL STREET
LITTLE ROCK, AP.722OI

DECEMBER3,2O2O

RE: SUPREME COURT CASE NO' CR-06-29
JUSTIN ANDERSON V. STATE OF ARKANSAS

THE ARKANSAS SUPREME COURT ISSUED THE FOLLOWING ORDER TODAY IN THE
ABOVE STYLED CASE:
..MOTION OF JOHN C. WILLIAMS TO BE RECOGNIZED AS COLINSEL ON BEHALF OF
APPELLANT IS GRANTED. APPELLANT'S MOTION TO FILE OVERLENGTH MOTION TO
RECALL THE MANDATE IS GRANTED."
APPELLANT'S TENDERED MOTION TO RECALL THE MANDATE AND MOTION TO
TAKE AS A CASE FILED THIS DATE,

CC:

JOHN C. WILLIAMS
JUSTIN ANDERSON
DARNISA EVANS JOHNSON, DEPUTY ATTORNEY GENERAL

